HHS/OIG, Audit - "Review of Medicare Payments for Beneficiaries with
Institutioanl Status - Kaiser Foundation Health Plan Inc., Oakland, California,"
(A-05-01-00094)
Department
of Health and Human Services
"Review of Medicare Payments for Beneficiaries with Institutional Status
- Kaiser Foundation Health Plan, Inc., Oakland, California," (A-05-01-00094)
October 17, 2002
Complete Text of Report is available in PDF format
(312 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that the Kaiser Foundation Health
Plan, Inc., received Medicare overpayments totaling $229,656 for 315 beneficiaries
incorrectly reported as institutionalized during the period January 1, 1998
through December 31, 2000.  Institutional status requirements specify that
a beneficiary must be a resident of a qualifying facility for a minimum of 30
consecutive days immediately prior to the first day of the current reporting
month.  The 315 beneficiaries included 266 that had admittance or discharge
dates during the 30-day residency period.  The remainder consisted of:
16 beneficiaries residing in facilities not certified for Medicare or Medicaid;
28 beneficiaries for whom institutional residency could not be documented; and
5 beneficiaries with hospitals stays greater than 15 days.